Nos. 19-416 and 19-453

In the Supreme Court of the United States
NESTLÉ USA, INC., Petitioner
v.
JOHN DOE I, ET AL., Respondents

CARGILL, INC., Petitioner
v.
JOHN DOE I, ET AL., Respondents

ON WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF AMICUS CURIAE
CENTER FOR GLOBAL JUSTICE
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 4,685 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 21, 2020
/s/ Jeffrey A. Brauch
JEFFREY A. BRAUCH
CENTER FOR GLOBAL JUSTICE
Regent University School of Law

